OIG Investigative Reports, Tax Assessor Betty Jefferson, along with Mose Jefferson and Angela Coleman indicted on Federal Charges.
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States U.S. Attorney's Office
Eastern District of Louisiana
500 Poydras St
Suite 210-B
New Orleans,
Louisiana 70130
Tel: 504.680.3000
Fax: 504.589.4510
Tax Assessor Betty Jefferson, along with Mose Jefferson and Angela Coleman indicted on Federal Charges
June 4, 2008
FOR IMMEDIATE RELEASE
BETTY JEFFERSON, age 70, an elected tax assessor in New Orleans, along with BETTY JEFFERSON’S brother, MOSE JEFFERSON, age 66, and her daughter, ANGELA COLEMAN, age 53, all residents of New Orleans, Louisiana, were charged via a 31 count-indictment by a Federal Grand Jury today with conspiracy to commit mail fraud; and federal program fraud; aggravated identity theft; substantive program fraud; and mail fraud, and conspiracy to commit money laundering, announced U. S. Attorney Jim Letten. Additionally, BETTY JEFFERSON was charged with four counts of tax evasion and MOSE JEFFERSON was charged with three counts of making false statements to federal investigators.
The indictment alleges that these defendants controlled numerous specified for-profit and non-profit companies, thereby obtaining control over federal and state grant funds for these non-profit companies by applying for charitable and educational grants designed to assist needy, at-risk and disadvantaged youth and other individuals in need of assistance. According to the indictment, the defendants would and did write checks out of the non-profit bank accounts payable to individuals who did not work for the grant programs, thereafter depositing those checks into their (the defendants) own personal checking accounts, or otherwise using the funds to pay for their personal expenses.
It is also alleged that the defendants funneled federal and state grant funds to themselves by writing checks on the non-profits’ bank accounts, thereby transferring monies into their companies in false attempts to create the illusion that the payments were for legitimate business purposes.
Additionally, the indictment charges that MOSE JEFFERSON used grant funds to pay for work performed at his direction on properties owned by him, and which had no relation to the non-profit grantees.
The indictment consists of:
Count 1: conspiracy to steal from agencies receiving federal funds, and to commit mail fraud - BETTY JEFFERSON, ANGELA COLEMAN and MOSE JEFFERSON. Penalty: five (5) years maximum imprisonment.
Counts 2 - 11: aggravated identity theft: Penalty: two (2) years maximum imprisonment per count.
Count 2 - ANGELA COLEMAN
Count 3 - BETTY JEFFERSON
Count 4 - ANGELA COLEMAN and BETTY JEFFERSON
Count 5 - ANGELA COLEMAN
Count 6 - BETTY JEFFERSON
Count 7 - BETTY JEFFERSON
Count 8 - BETTY JEFFERSON
Count 9 - ANGELA COLEMAN and BETTY JEFFERSON
Count 10 - ANGELA COLEMAN and BETTY JEFFERSON
Count 11 - ANGELA COLEMAN
Count 12: Stealing money from an organization receiving federal funds - BETTY JEFFERSON and MOSE JEFFERSON. Penalty: ten (10) years maximum imprisonment.
Count 13: Stealing money from an organization receiving federal funds - BETTY JEFFERSON and ANGELA COLEMAN. Penalty: ten (10) years maximum imprisonment.
Counts 14 - 23: Mail Fraud - BETTY JEFFERSON, MOSE JEFFERSON, and ANGELA COLEMAN. Penalty: twenty (20) years maximum imprisonment per count.
Counts 24 - 26: False statements by MOSE JEFFERSON to the FBI. Penalty: five (5) years maximum imprisonment per count.
Counts 27 - 30: Income Tax Invasion by BETTY JEFFERSON. Penalty: five (5) years maximum imprisonment per count.
Count 31: Conspiracy to commit money laundering - BETTY JEFFERSON, MOSE JEFFERSON, and ANGELA COLEMAN. Penalty: twenty (20) years maximum imprisonment.
Forfeiture Count 1: Aggravated Identify Theft Forfeiture.
Forfeiture Count 2: Money Laundering Forfeiture.
If convicted on all counts, defendant BETTY JEFFERSON faces a maximum possible statutory term of imprisonment of 279 years; ANGELA COLEMAN faces a maximum term of imprisonment of 257 years; MOSE JEFFERSON faces a maximum term of imprisonment of 250 years.
Additionally, each defendant faces a fine of up to $250,000.00 per count, or up to twice any gain to the defendant or loss to victims, as well as up to five (5) years supervised release following any term of imprisonment.
The United States Attorney reminds citizens that the statutory maximum penalties notwithstanding, the U. S. Sentencing Guidelines, although not mandatory, still remain advisory in the fashioning of sentences by the Court.
U. S. Attorney Letten reiterated that today’s indictment is a charge, and that the guilt of each defendant must be proven beyond a reasonable doubt.
Speaking to today’s indictment, U. S. Attorney Letten stated:
“We stand here today before the citizens having brought charges via a United States Grand Jury against an elected public official of the City of New Orleans and two of her relatives for serious felonies against the United States, the State of Louisiana, and the citizens. This indictment is a powerful, unambiguous signal that we will not tolerate abuses or theft from those federal and state funding programs specifically designed to help those genuinely disadvantaged and at-risk youth and other disadvantaged individuals in our community who so desperately need assistance. Together with our partners in the FBI, IRS, the U. S. Department of Education and HUD Inspectors General, we will continue to effectively and aggressively use our the powers of our federal laws and our resources to expose those who steal and thus deny critical benefits to those among us who need those benefits the most.”
Mark Gant, FBI Acting Special Agent in Charge added:
“Success in public corruption investigations is due largely to the cooperation and coordination from a number of federal, state and local law enforcement agencies to combat public corruption. Our agents investigating these matters have done a remarkable job. I’d like to thank HUD and DOE’s OIG and the IRS for partnering with us in today’s matter.
There is a growing intolerance by the American people of public corruption - an intolerance reflected in the willingness to come forward and report abuse of public office. We are always grateful for those who have come forward to report corruption. That information is critical to our work.»
Special Agent in Charge Michael J. De Palma also stated:
“The IRS mission in fraud investigations is to identify and recommend for prosecution those who engage in activities that lead to violations of the tax evasion and federal money laundering statutes. We will continue to work jointly with our law enforcement partners at the US Attorney's Office and the FBI to investigate these matters vigorously and completely.”
The case was investigated by the Federal Bureau of Investigation, the Internal Revenue Service, Criminal Investigation Division, the United States Department of Education, Office of Inspector General and the United States Department of Housing and Urban Development, Office of Inspector General. The case is being prosecuted by Assistant U. S. Attorneys Dorothy Manning Taylor and Daniel P. Friel.
(Download Indictment  (PDF)
Top
Printable view
Share this page
Last Modified: 06/05/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov